Page 2 – Charlene Frizzera


Because the State agency could not ensure that the costs claimed for LTC services were equal to
or less than the upper payment limits, we are unable to express an opinion on the $27,432,527 of
Federal reimbursement the State agency received for the costs of LTC services for the period
July 1, 2000, through December 31, 2005. Therefore, we are setting aside these costs for
adjudication by CMS.

We recommend that the State agency work with CMS to (1) resolve the allowability of
$27,432,527 in Federal reimbursement for LTC services that we set aside and (2) review claims
subsequent to our audit period through the end of the program in 2007 and return to CMS any
overpayments identified subject to the upper payment limits.

In written comments on our draft report, the State agency did not concur with our findings or
recommendations. The State agency said that it had complied with Federal regulations
governing nonrisk contract reimbursement because “in all cases, the comprehensive daily rate
paid for the LTC-MC program was less than the fee-for-service alternative, which was the
comprehensive daily rate for nursing facility services.”

Also, the State agency said that the LTC-MC program was converted to a fee-for-service 1915(c)
Home and Community Based Waiver in 2007 and so “the upper payment limit test is no longer
required.”

After reviewing the State agency’s written comments, we slightly modified our second
recommendation, and we are no longer recommending that the State agency develop new
procedures for the LTC-MC program because the State agency converted the LTC-MC program
to fee-for-service.

However, the State agency did not provide information that caused us to change our findings or
remaining recommendation. The State agency said that it met the upper payment limit
requirements because the LTC-MC program paid less than it would have paid if the participants
had been served in nursing facilities. Federal regulations, though, require the State agency to
demonstrate that payments to nonrisk contractors not exceed what Medicaid would have paid, on
a fee-for-service basis, for the services actually furnished to the recipients. Services actually
furnished under the LTC-MC program included adult day care, home health services, and
assisted living. By basing its upper payment limit test on nursing home facility costs that were
avoided, and not on actual services provided under the LTC-MC program, the State agency did
not comply with Federal regulations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at george.reeb@oig.hhs.gov
or Patrick Cogley, Regional Inspector General, at (816) 426-3591 or through e-mail at
patrick.cogley@oig.hhs.gov. Please refer to report number A-07-08-02719.


Attachment
Page 2 – Mr. Michael Hales


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       REVIEW OF THE
  LONG-TERM CARE, MANAGED
    CARE PROGRAM COSTS
    CLAIMED BY THE UTAH
   DEPARTMENT OF HEALTH




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-07-08-02719
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The Utah Department of Health (State agency) created the Long-Term Care, Managed Care
(LTC-MC) program to allow Medicaid beneficiaries living in nursing facilities the option of
moving into home- or community-based settings. The LTC-MC program consists of two
components: (1) primary- and acute-care services and (2) long-term-care (LTC) services. The
primary- and acute-care component consists of all non-LTC medical services that are covered
under the State plan.

The LTC component is the focus of our review and consists of a broad array of institutional and
home- and community-based LTC services. These services may include 24-hour supported
living alternatives, home health services, physical environment modifications, and adult day
care. Beneficiaries of these services may stay in nursing facilities or move to a home- or
community-based setting.

The LTC-MC program was developed using nonrisk contracts. Under a nonrisk contract, the
contractor (1) is not at financial risk for changes in utilization or for service costs incurred that
are equal to or less than upper payment limits specified in Federal regulations and (2) may be
reimbursed by the State agency for the incurred costs, subject to specified limits.

For the period July 1, 2000, through December 31, 2005, the State agency received a total of
$30,363,335 in Federal reimbursement for both LTC and primary- and acute-care service costs
for the LTC-MC program. Of this total, $27,432,527 was for LTC services.

OBJECTIVE

Our objective was to determine whether the State agency ensured that payments for LTC
services under the nonrisk contracts were equal to or less than the upper payment limits.

SUMMARY OF FINDINGS

The State agency did not ensure that payments made under the nonrisk contracts for LTC
services were equal to or less than the upper payment limits. The State agency lacked policies
and procedures to ensure that the LTC payments made to the contractors were equal to or less
than the upper payment limits.




                                                   i
Because the State agency could not ensure that the costs claimed for LTC services were equal to
or less than the upper payment limits, we are unable to express an opinion on the $27,432,527 of
Federal reimbursement the State agency received for the costs of LTC services for the period
July 1, 2000, through December 31, 2005. Therefore, we are setting aside these costs for
adjudication by CMS.

RECOMMENDATIONS

We recommend that the State agency:

   •   work with CMS to resolve the allowability of $27,432,527 in Federal reimbursement for
       LTC services that we set aside and

   •   review claims subsequent to our audit period through the end of the program in 2007 and
       return to CMS any overpayments identified subject to the upper payment limits.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our findings or
recommendations. The State agency said that it had complied with Federal regulations
governing non-risk contract reimbursement because “in all cases, the comprehensive daily rate
paid for the LTC-MC program was less than the fee-for-service alternative, which was the
comprehensive daily rate for nursing facility services.”

Also, the State agency said that the LTC-MC program was converted to a fee-for-service 1915(c)
Home and Community Based Waiver in 2007 and so “the upper payment limit test is no longer
required.”

The State agency’s written comments (except for personally identifiable information that has
been redacted) are included as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s written comments on our draft report, we slightly modified
our second recommendation, and we are no longer recommending that the State agency develop
new procedures for the LTC-MC program. The State agency converted the LTC-MC program to
fee-for-service.

However, the State agency did not provide information that caused us to change our findings or
remaining recommendation. The State agency said that it met the upper payment limit
requirements because the LTC-MC program paid less than it would have paid if the participants
had been served in nursing facilities. Federal regulations, though, require the State agency to
demonstrate that payments to nonrisk contractors not exceed what Medicaid would have paid, on
a fee-for-service basis, for the services actually furnished to the recipients. Services actually
furnished under the LTC-MC program included adult day care, home health services, and
assisted living. By basing its upper payment limit test on nursing home facility costs that were


                                                ii
avoided, and not on actual services provided under the LTC-MC program, the State agency did
not comply with Federal regulations.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                            Page
INTRODUCTION.................................................................................................................. 1

          BACKGROUND ......................................................................................................... 1
              Medicaid Program............................................................................................ 1
              States’ Authority To Contract for Services...................................................... 1
              Utah’s Medicaid Long-Term Care, Managed Care Program........................... 1
              Long-Term Care, Managed Care Program Payments...................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................... 2
               Objective .......................................................................................................... 2
               Scope................................................................................................................ 3
               Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ........................................................................ 4

          PAYMENT FOR LONG-TERM-CARE SERVICES AND THE
           UPPER PAYMENT LIMITS ................................................................................... 4
               Requirements for Payment of Long-Term-Care Services
                Under Nonrisk Contracts .............................................................................. 4
               Long-Term-Care Payments Not Equal To or Less Than
                the Upper Payment Limits ............................................................................ 4

          NO POLICIES AND PROCEDURES......................................................................... 5

          FEDERAL REIMBURSEMENT FOR POTENTIALLY
           UNALLOWABLE CLAIMS.................................................................................... 5

          RECOMMENDATIONS............................................................................................. 5

          STATE AGENCY COMMENTS................................................................................ 5

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................. 5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                                  INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States’ Authority To Contract for Services

States are authorized by Federal statute (section 1915(a) of the Act) to contract with an
organization (contractor) to provide care and services to beneficiaries in addition to those
services offered under the State plan.

Utah’s Medicaid Long-Term Care, Managed Care Program

The Utah Department of Health (State agency) created the Long-Term Care, Managed Care
(LTC-MC) program to allow Medicaid beneficiaries living in nursing facilities the option of
moving into home- or community-based settings instead of remaining in nursing facilities. CMS
approved the implementation of the LTC-MC program under section 1915(a) of the Act.

To become eligible for the program, a beneficiary must have lived in a nursing facility for at
least 90 days. The LTC-MC program has two components: (1) primary- and acute-care services
and (2) long-term-care (LTC) services. The primary- and acute-care component consists of all
non-LTC medical services that are covered under the State plan. The State agency uses
contractors to furnish LTC services to Medicaid beneficiaries.

The LTC-MC contracts describe the LTC component as a “. . . broad array of institutional and
home and community-based long term care services.” These services may include 24-hour
supported living alternatives, home health services, physical environment modifications, and
adult day care. Beneficiaries of these services may stay in nursing facilities or move to a home-
or community-based setting.

The LTC-MC program was developed using nonrisk contracts. Pursuant to Federal regulations
at 42 CFR § 438.2, a nonrisk contract is a contract under which the contractor (1) is not at
financial risk for changes in utilization or for service costs incurred that do not exceed the upper
payment limits 1 “specified in 42 CFR § 447.362” and (2) may be reimbursed by the State agency
for the incurred costs, subject to specified limits.


1
    Upper payment limits are defined more fully later in this section.


                                                             1
CMS approved the implementation of the LTC-MC program under section 1915(a) of the Act,
which allows the State agency to use contractors to provide care and services to beneficiaries. In
1999, the State agency submitted a contract with a managed care contractor—a contract that
incorporated one LTC service—to CMS for approval. Although CMS approved that contract,
the State agency modified the LTC-MC program and executed contracts with other contractors.
According to CMS officials, CMS withheld approval of those other contracts because of a lack
of compliance with the regulations.

CMS requires that the contracts between the State agency and contractors include language
directing the contractors to submit information to the State agency that the State agency uses
both in its semiannual reports to CMS and in its annual evaluations of the LTC-MC program.

Long-Term Care, Managed Care Program Payments

Capitation payments are lump-sum payments made each month in advance for all services that
will be provided to beneficiaries during that month. Fee-for-service (FFS) payments are after-
the-fact reimbursements from the State agency to the contractors for each individual service
provided. In its contracts, the State agency uses capitation payments to pay for all LTC and
primary- and acute-care services to beneficiaries enrolled in the LTC-MC program. The
contractors receive two monthly capitation payments for each enrolled beneficiary: (1) one for
LTC services and (2) one for primary- and acute-care services. Risk is mitigated through
additional payments and adjustments.

Pursuant to Federal regulations at 42 CFR § 447.362, capitation payments made under nonrisk
contracts may not exceed (a) what Medicaid would have paid, on an FFS basis, for the services
actually provided to beneficiaries plus (b) the net savings of administrative costs the State agency
achieves by contracting for the services instead of purchasing them on an FFS basis. In this
report, we refer to the calculated amounts described in this regulation as the upper payment
limits.

The State agency claimed Federal reimbursement on the Form CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program,” for the amount of the payments
made to the contractors. The costs claimed for these payments must be equal to or less than the
upper payment limits.

For the period July 1, 2000, through December 31, 2005, the State agency received a total of
$30,363,335 in Federal reimbursement for both LTC and primary- and acute-care service costs
for the LTC-MC program. Of this total, $27,432,527 was for LTC services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that payments for LTC
services under the nonrisk contracts were equal to or less than the upper payment limits.




                                                 2
Scope

The State agency claimed $41,981,698 ($30,363,335 Federal share) in costs on its Forms
CMS-64 for LTC and for primary- and acute-care services for the period July 1, 2000, through
December 31, 2005. We reviewed the $27,432,527 (Federal share) claimed for LTC services.
We did not review $2,930,808 (Federal share) of claimed costs for primary- and acute-care
services.

We did not review the overall internal control structure of the State agency’s operations or
financial management because our objective did not require us to do so. Rather, we gained an
understanding of the State agency’s controls with respect to the identification, accumulation, and
reporting of costs related to the LTC-MC program.

We performed our fieldwork at the State agency’s offices in Salt Lake City, Utah.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal Medicaid laws and regulations and the State Medicaid plan;

   •    interviewed CMS officials to obtain an understanding of their roles in the oversight of the
        LTC-MC program, to review the CMS approval of the LTC-MC program, and to obtain
        additional CMS documentation pertaining to this program;

   •    interviewed State agency officials to obtain an understanding of the LTC-MC program
        and its payment, reimbursement, and cost settlement mechanisms;

   •    reviewed the LTC-MC contracts between the State agency and the contractors;

   •    identified those beneficiaries enrolled in the LTC-MC program, identified the contractors
        who provided the beneficiaries’ care, and verified where the beneficiaries resided while
        enrolled in the program;

   •    determined the dollar amounts of LTC and primary- and acute-care payments made to the
        contractors;

   •    requested documentation from the State agency to support that payments were equal to or
        less than what Medicaid would have paid on an FFS basis; and

   •    identified the total dollar amounts of payments made under the nonrisk contracts, per
        year, for the LTC-MC program on the Forms CMS-64 and then attempted to reconcile
        these amounts both to the amounts the State agency reported in its Forms CMS-64 and to
        the State agency’s supporting schedules for its Forms CMS-64.




                                                 3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

The State agency did not ensure that payments made under the nonrisk contracts for LTC
services were equal to or less than the upper payment limits. The State agency lacked policies
and procedures to ensure that the LTC payments made to the contractors were equal to or less
than the upper payment limits.

Because the State agency did not ensure that the costs claimed for LTC services were equal to or
less than the upper payment limits, we are unable to express an opinion on the $27,432,527 of
Federal reimbursement the State agency received for the costs of LTC services for the period
July 1, 2000, through December 31, 2005. Therefore, we are setting aside these costs for
adjudication by CMS.

PAYMENT FOR LONG-TERM-CARE SERVICES AND THE UPPER PAYMENT
LIMITS

Requirements for Payment of Long-Term-Care Services Under Nonrisk Contracts

Federal regulations (42 CFR § 447.362) mandate that “under a non risk contract, Medicaid
payments to the contractor may not exceed (a) what Medicaid would have paid, on a fee-for-
service basis, for the services actually furnished to the recipients: plus (b) the net savings of
administrative costs the Medicaid agency achieves by contracting with the plan instead of
purchasing the services on a fee-for-service basis.”

Long-Term-Care Payments Not Equal To or Less Than the Upper Payment Limits

The State agency did not follow Federal regulations governing nonrisk contract reimbursement
when claiming costs for LTC services for the LTC-MC program. Specifically, the State agency
did not provide documentation to support that payments were equal to or less than what
Medicaid would have paid on an FFS basis for the services provided to beneficiaries, plus the net
savings of administrative costs the State agency achieved by contracting for the services instead
of purchasing them on an FFS basis.

We asked State agency officials to provide documentation to support that the amounts claimed
on the Forms CMS-64 were equal to or less than the upper payment limits. The State agency
was not able to provide supporting documentation for this comparison of the upper payment
limits with the Form CMS-64 claim amounts.

State agency officials were also unable to provide us with or explain the policies and procedures
used to calculate the upper payment limits.



                                                  4
NO POLICIES AND PROCEDURES

These potentially unallowable claims occurred because the State agency did not have policies
and procedures to ensure that the State agency could support that it was paying equal to or less
than the upper payment limits, pursuant to 42 CFR § 447.362.

FEDERAL REIMBURSEMENT FOR POTENTIALLY
UNALLOWABLE CLAIMS

Because the State agency could not ensure that its payments to contractors were equal to or less
than the upper payment limits, we cannot express an opinion on the State agency claims for
$27,432,527 (Federal share) in nonrisk contract costs for LTC services. As a result, we are
setting aside these costs for adjudication by CMS.

RECOMMENDATIONS

We recommend that the State agency:

   •   work with CMS to resolve the allowability of $27,432,527 in Federal reimbursement for
       LTC services that we set aside and

   •   review claims subsequent to our audit period through the end of the program in 2007 and
       return to CMS any overpayments identified subject to the upper payment limits.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our findings or
recommendations. The State agency said that “in all cases, the comprehensive daily rate paid for
the LTC-MC program was less than the fee-for-service alternative, which was the
comprehensive daily rate for nursing facility services.” The State agency added that,
accordingly, it “believes it has clearly demonstrated compliance with Federal regulations
governing non-risk contract reimbursement . . . .”

Also, the State agency said that the LTC-MC program was converted to an FFS 1915(c) Home
and Community Based Waiver in 2007 and so “the upper payment limit test is no longer
required.”

The State agency’s comments (except for personally identifiable information that has been
redacted) are included as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s written comments on our draft report, we slightly modified
our second recommendation, and we are no longer recommending that the State agency develop
new procedures for the LTC-MC program. The State agency converted the LTC-MC program to
FFS.


                                                5
However, the State agency did not provide information that caused us to change our findings or
remaining recommendation. The State agency said that it met the upper payment limit
requirements because the LTC-MC program paid less than it would have paid if the participants
had been served in nursing facilities. Federal regulations, though, require the State agency to
demonstrate that payments to nonrisk contractors not exceed what Medicaid would have paid, on
an FFS basis, for the services actually furnished to the recipients. Services actually furnished
under the LTC-MC program included adult day care, home health services, and assisted living.
By basing its upper payment limit test on nursing home facility costs that were avoided, and not
on actual services provided under the LTC-MC program, the State agency did not comply with
Federal regulations.




                                               6
APPENDIX
APPENDIX
 Page 1 of 6
APPENDIX
 Page 2 of 6
APPENDIX
 Page 3 of 6
APPENDIX
 Page 4 of 6
APPENDIX
 Page 5 of 6
APPENDIX
 Page 6 of 6
